                       U.S. Environmental Protection Agency 	                                               09-P-0054
                                                                                                      December 9, 2008
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s Las Vegas Finance Center
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s Las Vegas Finance Center network identified
Environmental Protection          Internet Protocol addresses with medium-risk vulnerabilities. Although Las
Agency’s (EPA’s) compliance       Vegas Finance Center personnel have taken actions to remediate the findings,
with the Federal Information      supporting documentation is needed to support the resolution of each
Security Management Act           vulnerability.
(FISMA). Williams, Adley &
Company, LLP, conducted the        What Williams, Adley & Company, LLP, Recommends
network vulnerability testing
of the Agency’s local area        Williams, Adley & Company, LLP, recommends that the Director of the Las
network located at EPA’s Las      Vegas Finance Center:
Vegas Finance Center in Las
Vegas, Nevada.                    •	 Complete actions to provide the Office of Inspector General documentation
                                     for each finding.
Background                        •	 Update EPA’s Automated Security Self Evaluation and Remediation
                                     Tracking (ASSERT) system.
The network vulnerability         •	 Perform a technical vulnerability assessment test of the Las Vegas Finance
testing was conducted to             Center network within 30 days to demonstrate and document corrective
identify any network risk            actions that have resolved the vulnerabilities.
vulnerabilities and present the
results to the appropriate EPA    Due to the sensitive nature of this early warning report’s technical findings, the
officials to promptly             full report is not available to the public.
remediate or document
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs,
and Management at
(202) 566-2391.
